<html>
<title> - ERDOS NOMINATION</title>
<body><pre>[Senate Hearing 116-350]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-350
 
                            ERDOS NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   to

CONSIDER THE NOMINATION OF LANNY E. ERDOS TO BE DIRECTOR OF THE OFFICE 
OF SURFACE MINING RECLAMATION AND ENFORCEMENT AT THE DEPARTMENT OF THE 
                                INTERIOR

                               __________

                           DECEMBER 17, 2019

                               __________
                               
                               
                               
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
39-875                WASHINGTON : 2021 
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     2

                               WITNESSES

Johnson, Hon. Bill, a U.S. Representative from Ohio..............     5
Erdos, Lanny E., nominated to be Director of the Office of 
  Surface Mining Reclamation and Enforcement at the Department of 
  the Interior...................................................     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Baker, Robert:
    Letter for the Record........................................    34
Bowman, Jennifer:
    Letter for the Record........................................    24
Butalia, Dr. Tarunjit:
    Letter for the Record........................................    35
Cera, Hon. Jack:
    Letter for the Record........................................    37
Department of Environmental Quality, State of Wyoming:
    Letter for the Record........................................    16
DeWine, Hon. Mike:
    Letter for the Record........................................    38
Erdos, Lanny E.:
    Opening Statement............................................     6
    Written Testimony............................................     8
    Responses to Questions for the Record........................    31
Interstate Mining Compact Commission:
    Letter for the Record........................................    39
    Resolution...................................................    41
Johnson, Hon. Bill:
    Introduction.................................................     5
Manchin III, Hon. Joe:
    Opening Statement............................................     2
Mertz, Mary:
    Letter for the Record........................................    26
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Ohio Aggregates & Industrial Minerals Association:
    Letter for the Record........................................    27
Phillips, Debbie:
    Letter for the Record........................................    28


                            ERDOS NOMINATION

                              ----------                              


                       TUESDAY, DECEMBER 17, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here this morning to consider the nomination of Mr. 
Lanny Erdos to be the Director of the Office of Surface Mining 
Reclamation and Enforcement within the Department of the 
Interior. This is an important position. I certainly think that 
you, Mr. Erdos, are qualified for it. Apparently you are going 
to be receiving an endorsement from my colleague here. I don't 
want to preempt----
    Senator Manchin. Absolutely.
    The Chairman. ----but he verifies that you are from a good 
place in West Virginia and that is certainly helpful.
    Since Congress enacted the Surface Mining Control and 
Reclamation Act (SMCRA) in 1977, OSM has overseen coal mining 
throughout the country. The Office also manages the Abandoned 
Mine Lands (AML) Fund which is used to reclaim historic mines 
that pose a risk to human health and the environment. While OSM 
plays an important role in approving and monitoring projects, 
SMCRA clearly envisions states as the lead regulator of coal 
mines. Currently 23 states have primacy over coal mining and 
reclamation programs, and 13 states have been delegated 
authority to regulate coal-related activities on federal lands 
within their boundaries. This structure allows federal laws and 
programs to be implemented efficiently by those who are closest 
to the impacts and best understand the unique challenges of 
their region.
    In my home State of Alaska, the coal regulatory program has 
regulated mining since 1983 and, together with Usibelli Coal 
Mine, our only operating coal mine, it has demonstrated that 
safe and responsible operations can be assured with minimal 
permitting delays. We have also seen the State of Alaska make 
good progress reducing its inventory of abandoned mine lands 
through the efficient use of federal AML dollars. This 
cooperative framework can also bring challenges. We have 
certainly seen some of those back home. There is a fine line 
between appropriate oversight and unnecessary delays, second 
guessing, or duplication of work.
    During the last Administration, we saw federal regulators 
slow walk or deny the approval of state permits. This has 
improved in the current Administration, but I think it is 
critical that we avoid backsliding in Alaska or really anywhere 
else. I have also heard concerns about the need to increase 
transparency and improve management of AML funds to ensure the 
program's goals are being accomplished as effectively as 
possible, especially as the economics of coal remain volatile.
    Mr. Erdos, your experience is impressive. You started your 
career at a mine before working your way up through Ohio's 
Division of Mineral Resource Management first serving as a 
Reclamation Inspector, an AML Design Specialist and leading the 
Division as Deputy Chief and then Chief. The perspective that 
you have gained by working at an operational coal mine and then 
in multiple technical and leadership positions at the state 
level, I think, will be invaluable as you seek to balance 
between state and federal authority. Your reputation is very 
good on this issue. You are a known pragmatic regulator who has 
consistently promoted solutions that make sense for all sides.
    If confirmed, and I am pretty confident that you will be, 
you will use your 31+ years of service to renew OSM's 
partnership with the states and to produce the energy resources 
that we need in a fashion that protects people and the 
environment.
    So thank you, again, for being here today, and for your 
willingness to serve. I now turn to my colleague, Senator 
Manchin, and then we will go to Congressman Johnson, who will 
introduce Mr. Erdos.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Madam Chairman, for holding 
this hearing on the nomination of Lanny Erdos to be the 
Director of the Office of Surface Mining Reclamation and 
Enforcement, which we refer to as OSMRE.
    Thank you, Mr. Erdos, for your willingness to take on this 
very important task and for being here this morning and 
bringing your expertise to the table. I enjoyed meeting you in 
my office. We had a great conversation, talked about old home 
areas and have a lot in common.
    The Office of Surface Mining Reclamation and Enforcement 
was created in 1977 by the Surface Mining Control and 
Reclamation Act. Any of us old enough to remember mining prior 
to '77, especially in the mountains of West Virginia, the way 
the mining was done at that time, there was no such thing as 
mountaintop removal, but there was strip mining. They would go 
around like peeling an orange, the peeling of an orange, and go 
around the mountain and basically leave whatever was left. They 
did not have to reclaim it or put it back to contour. They did 
not have to backfill it, make it look like it was before they 
got it. And then, basically, we never treated any of the 
drainage coming from some of the acid mines.
    So all of this came in after SMCRA, which was much needed 
with the AML, abandoned mine lands. I remember it very vividly 
and I think it is much better. But then we have mountaintop 
coming in, that is a whole other challenge that we have.
    The Act became law after six long years of exhaustive 
legislative consideration. It didn't just happen. It really had 
been needed for a long time, but it was really a fight because 
of the strength in the industry. Congress found that surface 
coal mining was creating disturbances to the surrounding 
terrain and impacting the welfare of communities, but it also 
recognized that mining coal was necessary to meet the nation's 
energy needs. And I have often said, there has to be a balance 
between the economy and the environment and that has to be 
basically predetermined before you go in.
    So what is going to happen in post mine? A post mine, 
basically, is when you leave it, what is left and what can you 
do with it? That is why SMCRA was so important. Additionally, 
Congress recognized the need to replace the patchwork of state-
by-state laws with a uniform federal standard, but one that 
recognized the need for a cooperative role with the states to 
successfully regulate coal mining within their individual 
borders. SMCRA was enacted to remedy these problems and to 
ensure that the nation could continue to mine coal to meet our 
energy needs without harming the health and safety of our 
citizens and the environment. What we basically said, if we 
couldn't do it in a safe and environmentally conscious way, 
don't do it. And we try to meet those balances. SMCRA places 
the primary responsibility for implementing and administering 
its programs in the hands of the Director of the Office of 
Surface Mining. It is a Director's job to protect the public 
and the environment from the effects of surface coal mining 
operations and to ensure that lands are restored to beneficial 
use when mining operations are finished.
    Let me give you another example of how crazy this was. If 
there is mountain disturbances in West Virginia, sometimes, we 
have no flat land. You cannot even build a house, let alone 
build any type of manufacturing or industry. And then they came 
up with a plan. Well, fine, if you are going to do mountaintop 
removal, you have to put the mountain back. It makes no sense 
whatsoever. If you are going to do mountaintop removal, it 
should be done with the land that was needed after it was 
completed so we can use it and put it in commercial use because 
we had none. That is what we have been asking for and what you 
all have been responsible for.
    Most coal states, including my own State of West Virginia, 
and several Indian tribes, now have their own surface mining 
and reclamation programs. The Director works closely with the 
state and tribal programs and provides them with technical 
assistance. The Office of Surface Mining helps train state and 
tribal professionals to ensure they have the skills needed to 
do the job and it works with colleges and universities to 
further reclamation science and develop the tools the states 
and tribes need to get the job done. Basically, what they have 
been doing is soil enhancement so they can replant, refurbish, 
do things of this sort where there is reforestation or 
agriculture and it has been very successful.
    Although the Office of Surface Mining might appear small 
compared to some of the Interior Department's larger bureaus, 
the task it has been given is enormous and it is critically 
important to coal states like mine and like Senator Barrasso's 
and to the nation as a whole, which has long benefited and 
continues to benefit from the coal that our states produce. The 
Office of Surface Mining is responsible for distributing money 
to the mine workers' combined health and benefit funds. I 
cannot stress enough how important this is to me and my state. 
That is why I am so proud that a fix to the Miner's Pension 
Fund and health care benefits is included in the year-end 
appropriation deals.
    And what we are talking about, we are talking about the 
surplus funds. We are not talking about the primary funds that 
are needed to restore and refurbish the ground, but there are 
excess funds there and we have used them to the benefit of the 
people that mine the coal. Because of this, 82,000 current 
pensioners, 10,000 future pensioners and an additional 13,000 
health care beneficiaries will not see their benefits gutted or 
eliminated next year. Everybody here has worked so hard on 
this, basically making sure that the Miner's Protection Act, 
the bipartisan Miner's Protection Act, passed. What we have 
been able to do in the last three years is protect almost 
34,000 miners and their families with their healthcare and 
92,000 miners and their families from getting their pensions 
absolutely gutted to the bone. It is unbelievable what was able 
to be done to save people in some of the most challenging areas 
of our country.
    As you know, Mr. Erdos, the Office of Surface Mining has a 
very important role to play in this implementation. I 
understand you are the nephew of Babe Erdos, a member of the 
MWA International Executive Board. I have no doubt you 
understand the importance of making sure the necessary 
transfers take place and that we keep the promise made in the 
Krug-Lewis Agreement of 1946. Congress specified the employees 
of the Office must have the professional competence and 
capacity to administer the program, and I believe you do and 
you have that experience and integrity.
    I believe Mr. Erdos plainly has the necessary competence 
and capacity. He spent 31 years working for Ohio's Department 
of Natural Resources. During that time, he worked as a 
Reclamation Inspector, an Abandoned Mine Lands Design 
Specialist, a Permitting Manager, Deputy Chief of the Mineral 
Resources Management Division and, finally, for eight years, as 
Chief of the Mineral Resources Management Division. For the 
past four months, he has served as the Principal Deputy 
Director, as the Acting Director of the Office of Surface 
Mining.
    So again, thank you for holding this hearing, Madam 
Chairman, and we look forward to hearing from our appointee.
    The Chairman. Thank you, Senator Manchin.
    We are honored to have one of the Representatives from the 
6th District, Ohio Representative Bill Johnson, come all the 
way over from the House side to introduce Mr. Erdos to the 
Committee this morning. We welcome you, and you may proceed. 
Thank you for coming over.

                STATEMENT OF HON. BILL JOHNSON, 
                 U.S. REPRESENTATIVE FROM OHIO

    Mr. Johnson. Well, thank you, Chairwoman Murkowski and 
Ranking Member Manchin, members of the Committee. I appreciate 
the opportunity to be here this morning. As you might imagine, 
votes have been called on the House Floor, so I'm gonna try and 
get through this as quickly as possible, but I'm gonna give it 
its due diligence as well because I am very, very proud to 
introduce Mr. Lanny Erdos, a gentleman I've had the distinct 
honor of working with on many issues important to Eastern and 
Southeastern Ohio, where I represent.
    Mr. Erdos has a well-earned reputation, as you pointed out, 
Madam Chairwoman, for being a hard-working professional, and I 
know he will do an excellent job as Director for the Office of 
Surface Mining Reclamation and Enforcement.
    Before his work at the Department of the Interior, Mr. 
Erdos was the Chief at the Ohio Department of Natural Resources 
Division of Mineral Resources Management. This position 
involved a broad range of responsibilities including the 
management and regulation of Ohio's coal and aggregate 
resources as well as management of the Division's Abandoned 
Mine Lands, or AML, and Mine Safety Programs. This meant he 
managed Ohio's AML grant monies and projects utilized for 
reclamation and remediation of coal. He also oversaw Ohio's 
Mine Safety Program which is tasked with training, testing and 
certifying Ohio's mining workforce, as well as inspection of 
Ohio's mines to ensure compliance with Ohio's mine safety laws.
    Mr. Erdos has worked with many stakeholders relevant to his 
nominated role of Director, such as the U.S. and Ohio 
Environmental Protection Agencies, U.S. Fish and Wildlife 
Service, U.S. Army Corps of Engineers, Ohio Aggregate and 
Industrial Minerals Association, Ohio Coal Association, Rural 
Action of Ohio, the Ohio Mideastern Governments Association 
and, of course, the Office of Surface Mining Reclamation and 
Enforcement. Mr. Erdos has also worked with industry and 
government representatives on various task forces created to 
address environmental concerns such as stream and wetland 
restoration and preservation, impoundment design, offsite 
effectment and remediation.
    Throughout his 31 years of state service at ODNR, Mr. Erdos 
has done great work for the great State of Ohio and for our 
country. And I have no doubt that he will continue to serve the 
public in that same fashion as the Director for the Office of 
Surface Mining Reclamation and Enforcement. I therefore 
recommend him to your Committee for due consideration.
    And with that, Madam Chairwoman, I yield back.
    The Chairman. Thank you, Congressman. We appreciate the 
introduction, and we know you have a busy day over there. Good 
luck with things.
    At this time, we will ask you, Mr. Erdos, to stand.
    The rules of this Committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony. So I would ask that you raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give the Senate Committee on Energy and Natural Resources shall 
be the truth, the whole truth and nothing but the truth?
    Mr. Erdos. I do.
    The Chairman. You may be seated.
    Before you begin your statement, I will ask you three 
questions addressed to each nominee who appear before the 
Committee.
    Will you be available to appear before this Committee and 
other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Mr. Erdos. I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you've been nominated by the 
President?
    Mr. Erdos. No, I do not.
    The Chairman. Are you involved or do you have any assets 
held in blind trusts?
    Mr. Erdos. I do not.
    The Chairman. You may proceed.

 STATEMENT OF LANNY E. ERDOS, NOMINATED TO BE DIRECTOR OF THE 
  OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT AT THE 
                   DEPARTMENT OF THE INTERIOR

    Mr. Erdos. Thank you.
    Chairman Murkowski, Ranking Member Manchin and members of 
the Committee, thank you for the opportunity to appear before 
you today as President Trump's nominee for the position of 
Director of the Office of Surface Mining Reclamation and 
Enforcement, OSMRE. I would like to thank President Trump and 
Secretary Bernhardt for their confidence in me. I'm excited to 
be here today to share with you my vision for OSMRE. I also 
appreciate the opportunity to share with you my background, 
give you an idea about where I come from and provide insight 
into my professional career at the Ohio Department of Natural 
Resources, or Ohio DNR.
    If I am honored enough to be confirmed, my 31 years of 
experience and public service at the Ohio DNR has uniquely 
prepared me for the position of Director of OSMRE. I have 
working knowledge and a specific experience in almost every 
aspect of OSMRE's mission. I began my career as an 
Environmental Technician primarily responsible for collecting 
field data and reviewing mine maps for accuracy. I was soon 
promoted to Reclamation Inspector where for seven years I was 
responsible for inspections associated with coal and industrial 
mineral mining. My responsibilities included ensuring that the 
coal operator was following the requirements of the Surface 
Mining Control and Reclamation Act of 1977, or SMCRA, and 
inspection of mining operation and reclamation activities.
    I later transferred to the Abandoned Mine Lands program, or 
AML, as a design specialist. Working under the supervision of a 
registered professional engineer, I designed AML projects such 
as high wall backfills, subsidence caused by pre-law 
underground mining, coal refuse reclamation projects and stream 
restorations, to name a few. I've also been a Permitting 
Manager where my responsibilities included oversight of all 
coal and industrial mineral applications.
    In 2008 I was promoted to Deputy Chief responsible for 
managing the state's coal, industrial minerals and mine safety 
programs. My responsibilities included statewide management of 
nearly 1,000 permits and the protection, training and 
certification of the state's mining workforce. Three years 
later, I was promoted to Chief of the Ohio DNR. I maintained my 
Deputy Chief responsibilities and also assumed management of 
the AML program.
    As Chief, I worked with federal partners such as the U.S. 
Environmental Protection Agency, the Office of Surface Mining, 
the U.S. Army Corps of Engineers and the Mine Safety and Health 
Administration as well as state and local partners such as 
state fish and wildlife, dam safety, forestry and engineering 
and higher education partners such as Ohio University and The 
Ohio State University. I also worked with local watershed 
groups. At the Ohio DNR, we funded numerous watershed 
coordinator positions throughout the eastern portion of the 
state. In connection with Ohio Rural Action we supported 
positions to assist with stream restoration projects and stream 
data collection.
    From a personal perspective, I come from a very strong-
willed, blue-collar background where family comes first. From a 
very young age my mother and father instilled into my brother, 
sister and me, the lessons that hard work is important, that it 
matters. They led by example and taught us this lesson through 
their own hard work.
    My father worked for nearly 30 years in an underground 
mine, and it gives me great pride to tell you today that I am 
the son of an American coal miner. Although it was an 
incredibly difficult job, he enjoyed it as well as the life it 
provided his family. He worked rotating shifts but somehow he 
always managed to make it to my sporting events and there were 
many because I thought I had to play every sport imaginable, as 
did my brother. My sister's band and scholastic events were 
just as important to him. My mother worked as a cook at the 
local school and later in the county court system for one of 
the local judges. Like my father, she always managed to make it 
to the kids' events and still managed to have supper ready back 
in the days when families sat together around the table for 
every meal.
    They both worked hard to support our family, and seeing 
that day after day stuck with me. I have tremendous respect for 
the men and women who mine the coal, that help to supply the 
country's energy needs like my son-in-law, who still, today, 
works in an underground mine in Pennsylvania. But I also 
understand the need to protect our lands and water. Striking 
that environmental balance, as I have tried to do for more than 
30 years, ensures the protection of our natural resources and 
supports the country's energy needs.
    If confirmed, it would be an honor to serve the citizens of 
this great country, President Trump and Secretary Bernhardt as 
Director of the Office of Surface Mining Reclamation and 
Enforcement. Thank you for today's opportunity, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Erdos follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

     
    The Chairman. Thank you, Mr. Erdos, I appreciate that and 
appreciate learning a little bit more about the family 
background. That is important.
    I want to just speak to the Alaska specifics of our 
resource development. I know that you are familiar with it, but 
when we say that we are somewhat unique in terms of resource 
development and our regulatory framework, it actually turns out 
that we are. We have some of the highest electricity costs in 
the country and for many, coal is one of those low-cost energy 
sources for the state.
    I mentioned in my opening statement, we have one coal 
producer. They have mining operations in a couple different 
locations, but it is basically one coal operator. Almost all of 
the coal now is used in state, so as we work through these 
state and federal partnerships, I think it is important that 
you just, kind of, keep that in mind.
    One issue that I would like to touch on which is causing 
some concern is the potential bonding requirement changes. So 
if you could just share with me how you view OSM's role and 
process for setting up and approving bonding?
    Mr. Erdos. Thank you for the question, Senator.
    So, as you're aware, there are many bonding instruments out 
there available to the various states and tribes as well as 
OSM. The primacy states essentially set the bond limits. They 
also determine those instruments. And there are 24 primacy 
states, 23 of those states, I believe, are actually mining coal 
today. So OSM's role is to oversee those bonding requirements 
for each one of those states, to work with the state regulator 
relative to what those bonding requirements look like and to 
ensure that there is sufficient bond to ensure reclamation.
    What I can say to you at OSM, if I'm fortunate enough to be 
confirmed, I certainly would not, coming into the job--come 
into the job looking to change anything that's currently 
working.
    The Chairman. Well, I appreciate that. I would welcome you 
to come up to the state and have that opportunity to talk to 
folks yourself. What I would ask this morning is that you would 
commit to work with me, my office, and consider, again, these 
unique aspects of Alaska's coal operations and regulations to 
ensure that any of the changes that could be made to bonding 
requirements in the Lower 48 are then workable within the 
state.
    Mr. Erdos. So again, thank you for the question, Senator. I 
certainly would enjoy doing that. And if I'm fortunate enough 
to be confirmed, I'm looking forward to coming back to Alaska. 
I've been there once.
    The Chairman. Yes.
    Mr. Erdos. And I certainly would love to come back.
    What I will say is any changes, and again, I'm not looking 
to change anything at this point, any change would have to work 
for all the states, certainly including Alaska.
    The Chairman. I appreciate that.
    The AML fund has been touched on here in opening 
statements. In Alaska we have about $44 million in remaining 
high priority AML projects. I think we are making some good 
progress in the state, but I have heard some concerns about the 
lack of progress made on the AML inventory nationally when 
compared against amounts that have been paid into the fund. I 
think we all recognize that there is a very dynamic nature to 
the list. You have some projects that are added while others 
are completed.
    How can OSM ensure that the coal producers and their 
customers as well have confidence that there is a plan to 
complete the identified projects efficiently and that this 
inventory list just does not represent, kind of, this never-
ending goal?
    Mr. Erdos. Well again, thank you for the question and 
that's a very, very good question. So I spoke to in my opening 
statement relative to the AML program and I, in actuality, I 
spent about two-thirds of my career working in the AML program 
back in Ohio. So it's a very important program. I certainly get 
that.
    Back in Ohio under my tenure as Chief, we completed 242 
health and safety projects and 217 emergency projects at a cost 
of about $46 million. And I have certainly read the articles, 
the same articles I'm sure that you've read, Senator, relative 
to the numbers and what those numbers look like. So with that 
being said, I recognize when I came on board three and a half 
months ago at OSM that that was an issue that we needed to 
address.
    So within the first two weeks I sat down with staff to talk 
about how we represent those numbers. What do those numbers 
look like on our webpage? Are they accurate? I've been very 
pleased with the progress we've made. We're working with our 
stakeholders like the Interstate Mining Compact Commission, 
relative to making sure that the numbers that are shown on our 
webpage represent true numbers relative to the cost of 
construction, design, administrative costs, those kind of 
things.
    And one of the concerns that, certainly, I had the same 
concern as a hired regulator was administrative cost. When I 
looked at those numbers, the actual administrative cost is 
around seven to eight percent which is a very good number when 
you start talking about administrative costs associated with a 
$10 billion program. So we're going to continue to work on 
that.
    We have a system to track projects. It's called e-AMLIS. 
It's the electronic Abandoned Mine Land Inventory System. It's 
a dynamic system. It changes all the time. States input data. 
We verify the data is accurate. We verify that, in fact, that 
project that was input into the system is, in fact, eligible as 
an AML project. So it is a number that does move up and down. 
Certainly we're going to continue to work with the states to 
ensure that's accurate.
    One of the things I would really like to do if I'm 
confirmed is sit down with our stakeholders and talk about the 
AML program, talk about appropriations, talk about 
unappropriated dollars and what those look like and how we can 
best, together, move forward relative to the AML program.
    The Chairman. Thank you very much. I appreciate that 
detail.
    Senator Manchin.
    Senator Manchin. Thank you very much.
    Mr. Erdos, as you know, the transfer of the excess funds 
into the United Mine Workers Retirement Fund is the lifeblood 
of what we are trying to accomplish right now with all the 
backlog that we have. The only thing I would ask is that you 
commit to ensuring the timely and uneventful transfer of these 
funds as directed by Congress, as we voted on. So your 
commitment to that is essential to what we are doing right now.
    Mr. Erdos. So, Senator, I'm aware. We talked about this 
when we met in your office, and I certainly understand the 
importance of legislation. What I have said, and I believe I 
shared this with you, is I'm working with my staff relative to 
what those numbers represent----
    Senator Manchin. Yes.
    Mr. Erdos. ----and what it means as far as AML 
distribution. I'm certainly willing to continue to work with 
you on what those numbers represent. I'd like to get briefed by 
my staff. I realize there's Treasury money and interest money 
relative to AML.
    Senator Manchin. Well, let me just say, the number that we 
have is about $10 billion in backlog, $10 billion with a B. But 
the majority of that is due to pre-SMCRA, as I talked about how 
the land was left before that. We are going back and doing 
water projects which, I think, the most critical thing we can 
do for the Clean Water Act is to make sure we are cleaning up 
these water problems that we have in a lot of the underground 
mines that have acid mine drainage.
    But with that, do you have a way to address the reclamation 
state-by-state to produce to exactly where we are post-SMCRA 
versus pre-SMCRA so we can really see what are the commitments 
we have and the obligations we have?
    Mr. Erdos. So, we do, Senator, we're working on that. 
Again, it's tracked through e-AMLIS which certainly is not the, 
we don't believe it's the best mechanism to track what you're 
looking----
    Senator Manchin. Yes, I don't know, I cannot tell you 
exactly to the penny in West Virginia how much has been 
associated pre-SMCRA and how much do we still have ongoing for 
after SMCRA passed in '77.
    Mr. Erdos. So, what I would, what I would commit to, 
Senator, I'll go back and work with our staff relative to that. 
But yes, we do track it. I'm not overly confident in some of 
those numbers. We're working on a new system to track AML--AML 
projects pre-SMCRA, AML liability post-SMCRA.
    Senator Manchin. Yes.
    Mr. Erdos. So certainly, I'm willing to go back and look at 
those numbers and look forward to working with you.
    Senator Manchin. Here is another challenge that we have 
that is the purpose of the AML. The Abandoned Mine Lands 
program is due to expire 2021. It will be under your tutelage, 
if you will. With that expiring--right now it takes $0.28 of 
every mine, every time a coal mine on surface and I think $0.12 
underground.
    How do you look at these fees? There is going to be a lot 
of pressure from the industry, all this is costing us and it 
does not cost them a penny. It has been built into the mix for 
many, many years, but no different than what they did with the 
Black Lung Fund. They have cut it from a $1.10 to $0.55. And at 
the time, I said, you are telling me then by cutting the fund 
and the money that we need to fight this disease, that you 
found a cure? If anything, we have more younger miners 
contracting Black Lung than ever before. So I would like to 
know what your commitment would be toward continuing the AML 
fund?
    Mr. Erdos. Well, certainly Senator, and thank you for the 
question, Senator. I am well aware of the legislation that's 
out there presently relative to AML reauthorization. I spoke to 
AML in my opening statement and the importance of AML and the 
fact that I've worked in the AML program for over 20 years. So 
I certainly understand the importance of the program.
    I want to continue to work with my staff and am certainly 
committed to working with you, Senator, relative to 
reauthorization.
    Senator Manchin. Let me throw this one at you, okay?
    In 2015 the Office of Surface Mining partnered with the 
National Academy of Sciences to study the health impacts of 
mountaintop removal mining to surrounding communities. Shortly 
after the Trump Administration came into office, the study was 
canceled. I have come around. I have come around on utilizing 
mountaintop removal methods, and I think the method has 
exceeded its useful life. So what are your thoughts on 
mountaintop mining? Do you believe that there is a continuing 
need for science-based data on the health impacts of 
mountaintop mining that the canceled study was meant to provide 
and do you have any intentions in reviving this?
    Mr. Erdos. Thank you for the question, Senator.
    So we talked a little bit about this, I believe, when we 
got together. I'm aware of the study, the National Science 
Academy study, relative to mountaintop removal. So I am aware 
of it. It was, I think it was initiated in 2016 and was 
canceled in 2018, long before my time at OSM.
    Senator Manchin. Yes.
    Mr. Erdos. As a state regulator, I was aware that it was 
going on when I was in Ohio, but really not much beyond that. I 
certainly haven't looked at any data associated with it or any 
narrative associated with that study. I haven't been briefed by 
staff relative to that.
    Senator Manchin. The only thing I can ask you to do, if you 
would, would you find out, when they canceled the study, did we 
already have the study completed or is it incomplete and what 
are the findings to date? Where do we stand on that and what 
have they found relevant to mountaintop that would be in the 
health and welfare of the people that live around it?
    Mr. Erdos. So, certainly I'd be willing to go back and look 
at that, Senator----
    Senator Manchin. We can make a determination if we think it 
needs to be continued or not, and then we will go from there in 
Congress. But we need to have the facts on that, if you can.
    Mr. Erdos. So again, I'm just not familiar with it----
    Senator Manchin. Yes.
    Mr. Erdos. ----relative to the study itself.
    Senator Manchin. We will work with you if you will work 
with us on that.
    Mr. Erdos. I'm certainly willing to work with you, Senator.
    Senator Manchin. Give us the study, where it stopped, yes.
    Mr. Erdos. Absolutely.
    Senator Manchin. Okay, thank you, sir.
    The Chairman. Thank you, Senator.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Well first, I want to thank you, Madam Chairman and Ranking 
Member Manchin, for holding this important hearing today. 
Wyoming has led the nation in coal production for decades. Our 
local economy relies heavily on the jobs and the revenue that 
the coal industry provides. We are proud to provide the nation 
with a reliable and affordable source of energy generation.
    Mr. Erdos, I enjoyed having time to visit with you last 
month. We covered quite a few topics. I have heard good things 
about you from folks in Wyoming. In fact, I have a letter right 
here from Todd Parfitt, who is the Wyoming Director of the 
Department of Environmental Quality and, Madam Chairman, I 
would like to submit this for the record.
    The Chairman. It will be included.
    Senator Barrasso. Thank you, Madam Chair.
    [Letter from Todd Parfitt follows.]    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Senator Barrasso. Under the Surface Mining Control and 
Reclamation Act, SMCRA, states are the primary implementers of 
the Abandoned Mine Lands program. Can you elaborate on your 
understanding of cooperative federalism and the role the states 
play as the primary implementers of SMCRA?
    Mr. Erdos. Thank you, Senator, very good question.
    So our role at OSM is oversight of the state regulatory 
authority, the programs, the primacy states across the country 
and, again, there are 24 primacy states across the country. So 
we are working very closely with those regulatory authorities. 
They are the regulatory authority (RA) within their state. And 
when it's appropriate, certainly, we will defer to states 
relative to that authority.
    But with that being said, we work very closely. We have a 
close relationship with all the states. I represented Ohio on 
the Interstate Mining Compact Commission for over a decade and 
I developed relationships with all the RAs across the country, 
including Todd. So, we have a very good relationship, work very 
closely together.
    Senator Barrasso. So talk a little bit more about how you 
envision this oversight role that you talked about from OSM 
over the states as they implement SMCRA locally?
    Mr. Erdos. So again, our role is one of oversight. The 
process of, actually enforcement is, that's a role of the 
regulatory authority. The permitting process, the application 
process, again, is that's under the authority of the regulatory 
authority which in this case would be state, the primacy state. 
So we work very closely with those folks. We developed a 
relationship. We have relationships with all the states that 
have primacy in regard to our oversight program but we work 
with them. It's one of cooperation.
    Senator Barrasso. I believe you are well-suited to serve as 
Director, having served as the Chief of the Ohio Department of 
Natural Resources and as an active member of the Interstate 
Mining Compact Commission. How will your experiences in these 
organizations influence your decision-making as the Director of 
OSM?
    Mr. Erdos. So one of the things that I've learned over the 
years is that communication is very important which everyone on 
this Committee fully understands. If you're not communicating, 
you're not moving forward. So I have a relationship with the 
folks across the country as a result of my time with the 
Interstate Mining Compact Commission. So we're gonna continue, 
I'm going to continue, to foster those relationships. We're 
gonna have, we're gonna continue to have conversations relative 
to regulation of the SMCRA permits across the country. So I'm 
very excited about the opportunity, if I'm fortunate enough to 
be confirmed, to do that with the states.
    Senator Barrasso. When we met last month, we discussed the 
need for OSM to advance programmatic amendments. Wyoming cannot 
finalize our own rules to our AML program without this, and we 
mentioned we have been waiting since 2014 for these amendments 
to be finalized. Will you commit to finalizing these 
programmatic amendments as soon as possible?
    Mr. Erdos. So Senator, one of the first things I did when I 
came aboard with OSM is I sat down with our staff. We had the 
conversation relative to program amendments. I recognized we 
had a backlog of 45 at OSM. Ohio has eight. So I knew coming in 
that it was an issue and certainly I understand the importance 
to the states. And I can assure you that we are gonna move 
those through the system.
    It's important to the states, and it's important to OSM 
that we do that and certainly make that commitment to review 
the program amendments timely. I've been working with staff 
relative to the process that we use, the system that we use in 
making modifications to that to make sure that it is timely.
    What I can say now, we have probably 35, I believe, left to 
review and approve, and we're working through those as quickly 
as we possibly can.
    Senator Barrasso. How are OSM and states improving the 
assessment of abandoned mine land sites? What technologies are 
you using to modernize the process?
    Mr. Erdos. So, what we're doing again, is, and again I'll 
talk to cooperation with the states. We work with the states 
very closely relative to identifying those sites that meet the 
requirements under SMCRA relative to AML sites. We're using e-
AMLIS. We're also looking at putting together a new database to 
track, to actively and accurately track AML projects and the 
costs associated with those.
    Senator Barrasso. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Erdos, as you probably know, OSMRE lost a series of 
court cases back in 2015 and 2016 with regard to analyzing the 
impacts of climate change where the courts found that the 
agency failed to look at those impacts and the impacts of its 
individual decisions on climate. Can you commit to complying 
with the law and fully considering climate impacts in OSMRE's 
permitting decisions moving forward?
    Mr. Erdos. Thank you, Senator.
    So what I will say is I agree the climate is changing.
    Senator Heinrich. I did not ask that.
    Mr. Erdos. Okay, I'm sorry.
    Senator Heinrich. I am asking if you will commit to 
implementing what the court ruled and analyze the impacts of 
climate in the permitting decisions that OSMRE makes moving 
forward.
    Mr. Erdos. So, thank you, Senator.
    So we do that every day. So part of what we do is science-
based and part of that science includes looking at climate. And 
as I said, I certainly agree that it's something that we need 
to look at. So we are doing that.
    Senator Heinrich. It's--so, maybe I am not being clear. I 
am just asking if you will commit to analyzing the impacts of 
your permitting decisions on climate moving forward as the 
courts ruled? Will you commit to complying with the court 
ruling?
    Mr. Erdos. So what I will say, Senator, is that, again, we 
do look at climate.
    Senator Heinrich. You cannot commit to complying with what 
the court ruled?
    Mr. Erdos. So, at OSM----
    Senator Heinrich. That seems like a pretty low bar.
    Mr. Erdos. So at OSM our job is to comply with the law, 
Senator. So that law requires us to ensure that the 
requirements of SMCRA are being met. And what I am committing 
to you is we will continue to do that using the best available 
science.
    Senator Heinrich. OSMRE is also responsible for making sure 
that the Kayenta mine on the Navajo Nation, which recently 
ceased mining operations, is fully and safely reclaimed before 
being returned to the Navajo Nation. It is important that this 
work be completed in full consultation and collaboration with 
the Navajo Nation and that the communities in the vicinity of 
the mine have confidence that their air and their water are 
being protected.
    Can you commit to ensuring the full and safe reclamation of 
the Kayenta mine area in direct consultation with the Navajo 
Nation?
    Mr. Erdos. Thank you, Senator.
    So certainly we're going to ensure that all reclamation is 
done relative to any permit that meets requirements of SMCRA 
that's associated with that permit. So we will certainly, we 
will certainly do that. We will ensure that reclamation is 
completed per the SMCRA permit.
    Senator Heinrich. And what about consultation with the 
Navajo Nation?
    Mr. Erdos. So I'm certainly, again, I talked about 
communication. I think communication is important.
    Senator Heinrich. I did not ask about communication. There 
are legal requirements for consultation with tribal 
governments.
    Mr. Erdos. So certainly, Senator, we will follow the law 
and we will certainly make sure that we have those 
communications with the tribes.
    Senator Heinrich. Okay.
    Mr. Erdos, I have got to say, I think you are making this a 
lot harder than it needs to be.
    Senator Manchin. If I can just add one thing? And I think 
it might help a little bit, Senator.
    If you are a mining company, you have to pay a bond. You 
put up a bond for any land and then basically you pay a fee on 
top of that that goes into AML. Your office has a discretion 
not to release that bond back to the company, and they can be 
held liable if it has not been done to specifications.
    Think what the Senator is saying. Are you enforcing that? 
Do you have enough enforcement powers and are you willing to 
basically enforce SMCRA law and basically putting the land 
back, if not as good, better than what they started mining 
with? A lot of times it can be done, whether it be trout 
streams or whatever. They can improve the quality. But if they 
do not do it, then you have the ability to basically keep that 
bond, forfeit that bond that they had and they get no 
reimbursement whatsoever. Is that correct?
    Mr. Erdos. So that's correct, Senator, on states where OSM 
has regulatory authority. We work with the regulatory authority 
in the primacy states to ensure the bond is not released, if 
it's not reclaimed further----
    Senator Manchin. How about the tribal law, from tribal law?
    Mr. Erdos. Tribes as well.
    Senator Manchin. Do you have oversight on tribal land?
    Mr. Erdos. We do.
    The Chairman. Thank you.
    Senator King.
    Senator Manchin, do you have further questions for Mr. 
Erdos?
    Senator Manchin. I think what everyone would like to know 
is that sometimes maybe the White House might be going, the 
Executive Branch might be going in a little bit different 
direction than what the law tells us that we must do and have 
to do. And with that, you have to have the will and the 
fortitude to be able to say this makes no sense whatsoever.
    All we are saying, and I have always said this, and I have 
been in some tough situations in mining in West Virginia. I 
lost my uncle. I have lost a lot of my friends to mining 
accidents. I have seen it done right, and I have seen it gone 
horribly wrong. What we are asking, we are depending on your 
agency to make sure that we do it right and make sure that you 
enforce it. I have never seen a good operator that had not 
taken that initiative, even gone further. But I have seen a lot 
of people on the fringes willing to cut corners. That is what 
we need to make sure that you are able to do and have the 
resources to do that, and openly report back to us to see if 
you need additional legislation that will give you more 
enforcement powers.
    The Chairman. Thank you, Senator.
    Senator Lee.
    Senator Lee. Thanks so much, Madam Chair and Mr. Presiding 
Member.
    Mr. Erdos, thank you for joining us today. Could you walk 
us through the process that one would have to go through in 
order to obtain a surface mining permit?
    Mr. Erdos. So thank you for the question, Senator.
    So if I were to explain that to you in its entirety, it 
would take us about an hour. So it's a very complicated 
process. They have to submit, obviously, an application. But 
before they submit the application, there's 12 to 24 months of 
background data that's required that they have to, they have to 
submit to the regulatory authority, or where OSM has regulatory 
authority, to OSM. So it's a very long process. I'm gonna speak 
to, if it's okay, I'm going to speak to my time in Ohio as a 
regulator on how we went through that process.
    So the application, the applicant submits an application to 
the State of Ohio, in this case, and we review it. So that 
review process--hydrology, topsoil, water quality, reclamation, 
those kind of things--is all completed. It's a very complex, 
time-consuming process. It generally takes anywhere from, in 
Ohio, two to three years to obtain a permit. So it's a very 
long, challenging, complicated process.
    Senator Lee. On average, how much time does Department of 
the Interior spend conducting a NEPA analysis?
    Mr. Erdos. So thank you for that question, Senator.
    So that's one of the things when I came onboard that I had 
to take a step back because it was taking six to ten years, 
roughly, on federal lands to achieve, for an operator to 
receive a permit to mine coal. So one of the things that's 
occurring today is BLM and OSM are working together relative to 
the NEPA process.
    Prior to that there was a process where we had BLM doing 
their NEPA review and at OSM we were doing ours. It was 
separate and certainly it's duplicative, taking far too long. 
So what we're doing today is we're working together. So BLM and 
OSM are working together, going out into the field together 
relative to environmental assessments, and we're also meeting 
in the office to discuss those environmental assessments. So 
it's certainly reduced the time relative to permitting.
    Senator Lee. It seems to me that one of the things that has 
happened in that process with it taking six to ten years within 
that window, that is a pretty broad window and it creates a lot 
of uncertainty, not knowing whether or when the project will 
finally be completed--certainty is, very often, what someone 
like a mining company would need most, would be certainty.
    There are other countries, other, sort of, peer nations 
that have pretty good environmental track records, pretty 
protective environmental laws, for example, Canada, Australia, 
just to name a few, where you do not see any disrespect for the 
environment, you do not see the land being destroyed or 
hazardous conditions being created, but you do have a process 
that is relatively predictable.
    In the end, the uncertainty in the length of time expands 
the cost and while it is easy to be unsympathetic toward a cost 
if you are looking at what you perceive as a large mining 
conglomerate of some sort, but ultimately the folks who own 
that end up, in many cases, being teachers, pensioners, people 
who invest in the company. And perhaps, more acutely they, the 
people who end up getting affected by it are consumers who find 
that everything they buy--so many of the things we buy today 
have something in them that at some point was mined, was taken 
out of the ground or was produced using something that was 
taken out of the ground--they find everything they purchase 
more expensive as a result.
    What changes would you suggest that Congress consider in 
order to address this problem, in order to make sure that the 
NEPA process on the one hand balances environmental concerns 
and takes those into account while balancing them also with the 
need for commonsense regulatory reform?
    Mr. Erdos. Thank you, Senator.
    So what I would say is I think we're doing a pretty good 
job today relative to working with our sister agency at BLM in 
regard to the NEPA process. It's a process we're going to 
continue to use, and I've made that statement to our folks. 
It's a new process. It hasn't been done before. We're going to 
continue to do it.
    My expectations are that we're gonna reduce the timeframe 
associated with permitting from six to ten years to two or 
less. So we're heading in, we're certainly headed in the right 
direction. I've talked to my counterparts at BLM, and we've 
both committed to--this is a process that we have to continue. 
This is the process we have to continue to work together on to 
reduce timeframes relative to permitting.
    But at the same time, we're also ensuring protection of the 
environment. We have two sets of eyes looking at these areas 
relative to environmental assessments. I'm very confident that 
timeframes will be reduced, streamlined, and at the same time, 
we're gonna ensure that the environment is protected.
    Senator Lee. Madam Chair, I have one more question I would 
like to ask, if that is okay? Thank you.
    The Surface Mining Control and Reclamation Act, SMCRA, 
allows states to take the lead on issuing coal mining permits 
with limited OSMRE oversight. When OSMRE sees a violation or 
receives a complaint, my understanding is that it has the 
authority then to issue a 10-day notice. State regulators are 
then expected to investigate the issue, follow up on it and if 
the state fails to act, OSMRE can issue a notice of violation 
or, as a last resort, can take over either all or part of the 
state's coal mine regulatory program. Have I got that right so 
far?
    Mr. Erdos. You do.
    Senator Lee. The Obama administration issued guidance to 
expand the use of 10-day notices in instances where a citizen 
complaint, ``establishes a reason to believe that a violation 
may exist.'' The Trump administration has since rescinded that 
use and has said that there is an upcoming proposal that will 
allow greater deference and flexibility.
    Now the 10-day notice seems to be a tool that can be 
weaponized by administrations that do not like coal and want to 
harm the industry. What do you feel would be the proper use of 
a 10-day rule?
    Mr. Erdos. So currently at OSM we work very closely with 
the states relative to the 10-day notice process. We generally 
give the states, if we get a call from a citizen relative to a 
complaint, we'll have a conversation with the state relative to 
that complaint, give the state the opportunity to address 
whatever that complaint may be, to do the investigation and 
report back to us. Obviously, if the citizen complaint is 
valid, then certainly the expectations are enforcement actions 
will be taken by the state.
    And if it's not taken by the state, then certainly, OSM has 
the authority to take enforcement action at the federal level, 
if necessary. We certainly haven't seen many cases where that 
has happened. Again, we have a good relationship with the 
states. They work very closely with us. So, the process, the 
process is certainly working. It's a tool that we have in our 
tool chest at OSM, but we certainly, certainly like to work 
with the states when that's an option.
    Senator Lee. Thank you so much. I really appreciate it.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    I have several letters that have been received by the 
Committee that will be included as part of the record here this 
morning in support of you, Mr. Erdos--one from the Rural 
Action, one from the Ohio Aggregate and Industrial Minerals 
Association, the Department of Environmental Quality in 
Wyoming, and a letter from Ohio University as well as the Ohio 
Department of Natural Resources. Those will be incorporated as 
part of the record.
    [Letters of support follow.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
   
    
    The Chairman. Mr. Erdos, thank you. I appreciate, as I said 
at the outset, your willingness to serve in this capacity. You 
clearly come with years of experience in the field, a practical 
approach that, I think, serves us well in a regulatory 
environment. So I thank you for your willingness to come before 
the Committee and answer questions. If other members of the 
Committee have questions that they would like submitted, they 
will be included in the record and we hope that you would be 
able to respond to those in a timely manner.
    But based on what I have heard this morning, my hope is 
that you will move quickly through the process. Although I will 
just note the obvious that on a Tuesday of the week that we are 
set to be closing down here before the end of the year, you are 
probably not going to get your name to the Floor for a vote 
before the Christmas holidays and the New Year. But it is 
something that I would hope with Senator Manchin we can process 
quickly come the New Year.
    So we thank you. Thank you for your willingness to serve, 
and we wish you well.
    Senator Manchin. I only had to say that I appreciate you 
bringing your expertise and your experience level to the people 
that really build America and your father and your family being 
one of them, and I appreciate that and respect that very much.
    I was born and raised in the coal fields at some of the 
deepest coal mines at Pittsburgh, same as we mined, and up your 
way also, so we both know that tradition and the culture. And 
with that, they have a right to be protected and they have a 
right to make a living but they also have a responsibility as 
the owners to do it in the most prudent way and the most 
efficient way and the safest manner and with the most concerns 
about what we leave behind.
    I think your office has that responsibility to make sure 
that they fulfill that. We are here to help and work with you, 
and I will enjoy working with you and your staff. I think we 
laid out some of the things we have concerns about. My staff 
will follow up on that with you, and I look forward to 
supporting you in this endeavor.
    Thank you and Merry Christmas to everybody.
    The Chairman. Thank you, Senator Manchin.
    With that, Mr. Erdos, again, thank you and the Committee 
stands adjourned.
    [Whereupon, at 11:03 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               

</pre></body></html>
